PROOF OF SERVICE
I, Magda Mankaruse, declare:
I am and was at the time of the service mentioned in this action, reside in the County
of Orange, California. I am over the age of 18 years and not a party to the within action.
My residence address is 19081 Carp Circle, Huntington Beach, CA 92646.
On July 29, 2021 I served a copy(ies) of the following document(s) described as
PRTITION FOR WRIT OF CERTTIORARI
on the parties to this action by placing them in a sealed envelope(s) addressed as follow
Party(ies) Serviced

Name of Party

Method of
Service

Andrew P. Valentine
DLA PIPER LLP (US)
2000 University Avenue
East Palo Alto, CA 94303-2215
Andrew.valentine@dlapiper.com

All Defendants of
the Case Nagui
Mankaruse v.
Raytheon Company
et al

By US MAIL

Telephone: {650) ^33 2qOO
Facsimile : (650) 833-2001

[Xl

(BY US Mail) 1 personally deposited the envelops in the US Postal Service with
Postage thereon fully prepaid in the envelope(s) to the addressee(s) above.
I declare under penalty of perjury under the laws of the United States of America

that the above is true and correct, and that this declaration was executed on July 29, 2021,
in Huntington Beach, California.

Magda Mankaruse

LO
a>

GO
CL

PETITION RAYTHEON FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

